                            SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                            OFFICE OF INSPECTOR GENERAL


ISP-I-13-13A                                Office of Inspections                               February 2013




              Inspection of
  Embassy Bangui, Central African Republic




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State
or the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior
authorization by the Inspector General. Public availability of the document will be determined by the Inspector
General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or
administrative penalties.




                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                    1
Context                                                          2
Executive Direction                                              3
Policy and Program Implementation                                6
  Economic and Political Reporting and Analysis                  6
  Military Coordination                                          6
  Public Diplomacy                                               7
  Consular Affairs                                               8
Resource Management                                             10
  Overview                                                      10
  A Long-Term Solution                                          11
  Human Resources                                               12
  General Services Office                                       13
  Real Property                                                 13
  Facilities and Safety, Health, and Environmental Management   13
  Financial Management                                          14
  Information Management                                        14
Quality of Life                                                 17
Management Controls                                             18
  Consular Management Controls                                  18
List of Recommendations                                         20
List of Informal Recommendations                                22
Principal Officials                                             23
Abbreviations                                                   24




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Department of State’s (Department) inability to staff Embassy Bangui adequately
       has prevented it from functioning as an effective mission.

   •   Embassy Bangui, a 15-percent danger pay post, faces numerous threats (b) (5)


   •   If the Department cannot adequately staff and protect the embassy, it needs to consider
       whether the risks to personnel in Bangui are justified or find another way to maintain
       diplomatic representation in the Central African Republic, such as regional accreditation
       from a nearby embassy.

   •   Post leadership has not developed a sense of team and unity of purpose.

   •   Embassy reporting is excellent and appreciated by Washington consumers.

   •   Embassy Bangui is unable to provide sufficient administrative support in house and
       would benefit from more support from larger embassies in the region.

   •   Information systems security and management is inadequate. There is no U.S. direct-hire
       information management employee at the embassy, and temporary support does not
       provide sufficient oversight.


        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where the Office of Inspector General (OIG) team did not identify problems that
need to be corrected.

       The inspection took place in Washington, DC, between September 10 and 28, 2012, and
in Bangui, the Central African Republic, between November 5 and 12, 2012. (b)(2)(b)(6)

                  conducted the inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
        The Central African Republic is a landlocked country in the center of Africa. The
southwest corner of the country is part of the biodiverse Congo Basin rainforest, and the north
approaches the semidesert Sahel. Three-quarters of its 4.6 million inhabitants live in small
villages, mostly practicing subsistence agriculture. With the exception of a few foreign-funded
construction projects, the country appears to have developed little in 50 years since
independence.

        The Central African Republic suffers from chronic instability, caused in part by weak
central institutions that are unable to deal with local rebel groups and incursions from Chad,
Sudan, and Uganda. Desertification in the north, which has pushed people toward the south, has
created a humanitarian disaster, with widespread malnutrition. Including those uprooted by the
Lord’s Resistance Army, there are 65,000 internally displaced people in the country.

        The United Nations Development Program’s 2011 Human Development Index for the
Central African Republic is 0.343, which puts it in 179th place in the world. The per capita gross
domestic product is $483 for 2011. Only about 2 percent of the country’s roads are paved, and in
2003, it was estimated that there were fewer than 2,000 cars in this country the size of Texas. A
country rich in natural resources, the Central African Republic’s economic and development
challenges are exacerbated by poor governance. The primary exports are diamonds, timber,
cotton, coffee, and tobacco, amounting to only $170 million per year.

        The United States has had diplomatic relations with the Central African Republic since
its independence from France in 1960. The U.S. embassy in Bangui was closed in 1997 and
again in 2002 in response to political and physical insecurity. The embassy reopened in 2005,
and a resident U.S. Ambassador was appointed in 2007. Recently, the embassy has increased in
size, because the Lord’s Resistance Army and its leader, Joseph Kony, have been using the
lawless eastern parts of the country as a base of operations. In 2011, the United States sent
military advisors to the Central African Republic to help find Kony. Concerns about political
instability and physical insecurity still underpin all U.S. activities in the country.

        Political instability, endemic disease, poor health care, and inadequate transportation
make the Central African Republic a difficult place in which to live. The Department warns U.S.
citizens of the risks of travel to the Central African Republic. The embassy estimates about 170
American citizens, mainly missionaries and nongovernmental workers with well-established
support networks, live in the Central African Republic.

        Embassy Bangui is staffed by 7 U.S. direct hires, 2 local-hire Americans, and 35 locally
employed (LE) staff members. One temporary liaison officer from the U.S. Army’s Africa
Command represents the only other agency at the mission. The embassy’s total funding is $3.6
million. OIG conducted a management assessment review in 2004. At that time the American
staff had been evacuated and only the LE staff was present.

Note: Embassy Bangui temporarily suspended operations on December 28, 2012, as a result of
the security situation in the Central African Republic.
                                       2
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
       The Ambassador arrived in September 2010 and the deputy chief of mission (DCM) in
July 2011. They constitute a team that is particularly strong in outreach and reporting and have
successfully weathered a series of management challenges. They are not as successful when it
comes to leadership and morale.

        The Ambassador’s active outreach agenda has connected him to the circle that enjoys the
Central African Republic’s President Bozizé’s confidence. Washington consumers applaud the
embassy’s informed reporting on political and economic issues. The embassy has overcome
security-related travel restrictions by using its close ties to senior government officials in the
capital and several provincial centers.

        The embassy’s management challenges, however, are not being fully met. The embassy
struggled to overhaul its operations after reopening, including doubling its U.S. direct-hire staff,
and a major restructuring of LE staffing—all in the absence of a permanent management officer.
Excessive dependence on temporary duty support (about 10 temporary duty personnel a month in
the past year) has compromised effective use of embassy resources and increased the cost of
operating the embassy. Another issue is the Department’s increasing dependence on automated
management systems that impose a bureaucratic overhead on small posts with inexperienced
staff.

       Concern about (b) (5)
                                                               affects the entire embassy.

        The staff in Bangui is productive despite the operating difficulties. For the embassy to be
fully effective, however, the Department must immediately invest more in management and
security personnel. (b) (5)
                                                                             (See the classified
annex to this report for more detail.) Operations also suffer because there is no consistent,
experienced management officer to support the mission. The Department needs to determine
whether the cost of this additional investment justifies the value of maintaining an embassy in
Bangui.

Recommendation 1: The Bureau of African Affairs, in coordination with the Bureau of Human
Resources, should assess the type of presence it wishes to maintain in the Central African
Republic and develop a strategy to staff and support the embassy appropriately. (Action: AF, in
coordination with DGHR)

Mission Planning

        In 2011 the embassy prepared a notional Mission Resource Request focusing on
humanitarian assistance for displaced persons and refugees from neighboring countries;
development, including support for democratic governance and institutional and other
infrastructure to support governance; and security concerns along the country’s borders. The


                                       3
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Ambassador conducted country team planning off-sites at the beginning of FYs 2012 and 2013
to set and prioritize goals. The embassy is now preparing a formal Mission Resource Request.

Leadership

        Despite the embassy’s small size, executive direction is more hierarchical than collegial.
A weekly country team meeting provides the Ambassador an opportunity to inform the team on
his recent contacts with senior government officials. The communication from the country team
to the Ambassador is not as effective. Notwithstanding weekly, topical staff meetings and
monthly town hall gatherings with LE staff, some of the American and LE staff members feel
distanced from the front office.

         The DCM has broad executive responsibilities. He supervises the reporting agenda
assigned to the first-tour political/economic/consular officer. The officer meets weekly with the
DCM and usually the Ambassador as well. The DCM is responsible primarily for military
affairs, which include the U.S. Special Forces deployment to the eastern Central African
Republic and a rotational U.S. Africa Command liaison officer position.

        The DCM also manages the challenges posed by security issues in a country (b) (5)
                                                                               A measure of the
insecurity of Bangui is that the French have a 300-person military garrison stationed at the
airport. The security environment is complex and includes violence from indigenous rebel
groups, armed incursions from neighboring countries, organized and common criminal activities,
and violence between different armed components of the Central African Republic Government.
One of the keys to a good security posture is good information, which is provided by the
embassy’s excellent contacts.

        The front office has also led an improvement in management procedures and the
development of LE staff capabilities despite long absences in the critical management officer
position. The physical plant is antiquated and needs maintenance. Embassy Bangui’s reliance on
temporary duty assistance complicates management because there is little continuity. The early
(and appropriate) departure of one officer engrossed the front office’s time. The two remaining
entry-level officers are highly productive but would benefit from more informal interaction with
the Ambassador and DCM.

Entry-Level Officer Program

        The two entry-level officers in Bangui do not benefit from a formal entry-level officer
professional development program. The DCM regularly meets one on one with each of them, but
the meetings are seen as more related to current work than long-term professional development.
Understanding that there are few options for a formal program in Bangui, the OIG team
counseled the DCM to more directly address the professional development needs of his entry-
level staff.




                                       4
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Morale

        The Ambassador has been effective in his dealings outside the chancery but less so in
leading and inspiring his team. In addition, the DCM is overextended. At a mission where
security-imposed restrictions on mobility, a tropical climate, daunting health challenges, and a
dearth of entertainment test morale in the best of circumstances, the front office has attempted to
build better morale. Despite the planning activities discussed earlier, the staff has a poor sense of
Embassy Bangui’s place in the larger U.S. diplomatic agenda in Africa and asserts that it is
inadequately supported. The OIG team counseled post management to look for more ways to
better connect with their employees.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Economic and Political Reporting and Analysis

        Washington end users, including action officers and analysts, rate Embassy Bangui’s
reporting as excellent. Access to the highest levels of the Central African Republic Government
as well as nongovernmental organizations is exemplary—starting with the senior LE staff and
including all reporting officers. The DCM’s knowledge of the Lord’s Resistance Army,
complemented by a Department of Defense presence in the embassy, has shaped a significant
portion of Bangui’s reporting. Spot reports of important breaking events are often sent on the
same day and quickly followed by analyses. End users uniformly said reportage from Embassy
Bangui constitutes Washington’s primary source of information about most Central African
Republic developments. One analyst noted that, “The embassy’s reports are very timely, very
informative, and very analytic—they do my job for me.”

        Although U.S. interests are limited in this small, isolated country, the U.S. Government is
keen for information on the Lord’s Resistance Army now roaming the eastern Central African
Republic. Other issues of interest include the government’s response to threats to regime stability
and social issues. Embassy Bangui covers these topics with an appropriate volume of high-
quality reports despite a small staff and travel and communications difficulties. There is scope
for increased reporting on military reforms and economic matters.

        Bangui has developed and uses a reporting plan, but as expected in a small embassy, 23
out of 27 reports in the plan are recurrent, congressionally mandated reports, such as the Human
Rights report and the Trafficking in Persons report. This rate of reporting leaves little room for
discretionary reporting, including spot reporting that is not covered by the plan.

Representation

        Bangui spent $11,000 on program representation in FY 2012. There was no plan for
distributing the funds and the Ambassador used almost all of them. The public affairs officer
used a separate representation allowance. Establishing a plan would help to focus the funds on
priority goals of the mission and encourage their equitable distribution.

       Informal Recommendation 1: Embassy Bangui should create a plan for the use of
       representation funding.

Military Coordination

         A number of U.S. Special Forces are stationed in the far southeast of the country to
advise the Central African Republic and Ugandan Armies in tracking and countering the Lord's
Resistance Army. According to the Bureau of African Affairs, the Ambassador has played a key
role in fostering smooth liaison and cooperation support between the U.S. forces and the Central
African Republic. During the inspection, a civilian representative from the Bureau of Stability
Operations began a 6-month assignment to the embassy to complement the liaison officer from
the U.S. Africa Command; a regional field representative from the Department was assigned to
                                       6
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

coordinate regionally and with other agencies. A $100,000 International Military Education and
Training program has the potential to help solidify relations with the Central African Republic’s
military, but in the past 2 years the program has been suspended by a 2010 dispute between the
embassy and the Ministry of Defense and because a key waiver was not processed in time last
year. In addition, a variety of other U.S. military funding sources contributed more than $1.5
million dollars in goods and services from mid-2011 to mid-2012.

Assistance

       There is no official bilateral assistance program, but the embassy estimates that $70
million of U.S. Government funds are spent in the Central African Republic through multilateral
and nongovernmental organizations, including the World Food Program, Mercy Corps, and
National Democratic Institute. The public affairs officer is the only employee with a grants
warrant. When the incumbent permanently left the embassy on short notice, there was no one left
with a warrant. The DCM had to get emergency authority to approve a grant during the officer’s
absence.

       Informal Recommendation 2: Embassy Bangui should train and certify a backup grants
       officer.

Ambassador’s Self-Help Fund

       There are three locally managed funds in Bangui, the Ambassador’s Self-Help Fund, the
Democracy, Human Rights, and Labor funds, and public diplomacy grants that distribute about
$150,000 annually. Disbursement for self-help and democracy funds is well supported by the
U.S. embassy in Nairobi. The pool of recipients is well known, and all three of the modest funds
have been successful.

Environment

         Environmental interests in the Central African Republic focus on sustainable
development in the lowland rain forest of the southwest of the country and antipoaching
initiatives in the north. Although the Central African Regional Program for the Environment has
been successful in promoting conservation in the southwest, antipoaching initiatives in the north
suffer sustainability and capacity limitations.

Public Diplomacy

        Public diplomacy is active despite limited resources. Leveraging a new public affairs
officer position, the Ambassador has focused considerable energy on outreach to youth, women,
and other priority groups. In addition, the embassy has revitalized the Information Resource
Center, which is colocated with the chancery just blocks from the center of Bangui. The OIG
team noted a constant presence of young people in the center, taking advantage of wireless
Internet connectivity.

      Bangui is a pilot post for a project to replace books with e-readers. The Information
Resource Center has 75 e-readers and is developing a plan to use them. The embassy is soliciting
                                                 7
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

suggestions for titles to download using a series of focus groups. The e-readers are well
controlled and stored in wheeled cabinets that are equipped with 20 power outlets for recharging
their batteries. The public affairs staff is energized by the initiative and reports that the public is
eager to access the e-readers. The staff is cognizant of the risks of theft and has carefully
developed security protocols.

        The journalistic environment in Bangui is simple and unsophisticated, and the local press
typically prints whatever the embassy provides. There are several small-circulation newspapers,
but most people in the Central African Republic receive their information via the radio. The
embassy has good relations with the broadcast media and used it during the OIG inspection,
when the Ambassador gave remarks on Radio Ndeke Luka in the local language, Sangho.

        The embassy processes 5 to 10 International Visitor Leadership Program grantees per
year. In keeping with mission priorities, the focus is on youth and women. The embassy has an
active International Visitor Leadership alumni program and uses the returned grantees in panel
and roundtable discussions.

Consular Affairs

       Embassy Bangui has one part-time officer and one part-time LE staff member dedicated
to consular work. They provide only notarial and emergency American citizens services.
Nonimmigrant visas and U.S. citizenship services are handled at Embassy Yaoundé, Cameroon.
Support from Yaoundé, Paris, and the Frankfurt-based regional consular officer has been good.

American Citizens Services

        The embassy has a warden notification system to inform the 170 resident U.S. citizens of
potential or actual threats to their safety. Five wardens, representing organizations with several
Americans resident in the Central African Republic, are a part of the embassy emergency radio
network. In addition, about half of the projected American population is registered and
communicates via email. About half of those registered have shared their cellular telephone
numbers with the embassy so it can send text message alerts. The consular assistant, who worked
through evacuations in 1997 and 2002, is well versed in evacuation procedures.

       There is one American citizen in judicial custody in the Central African Republic. Access
to him has been difficult, but through a concerted effort the embassy has been able to meet with
him.

Visas

       Even though fewer than 500 Central African Republic citizens receive visas each year,
the consular section spends an inordinate amount of time assisting them to complete online visa
applications and coordinating visa processing with neighboring posts. Part of that service
involves informal contact between the applicant and officers in the embassy. Because Embassy
Bangui does not adjudicate visas, officers may be involved in the informal visa process and it
would not be considered a referral. The OIG team reminded the embassy that if an officer

                                        8
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

contacts the adjudicating embassy on behalf of an applicant, then that officer must follow 9
Foreign Affairs Manual (FAM) Appendix K referral procedures.

        For travelers who do not need to be fingerprinted (mostly officials), routine visa
processing in Yaoundé takes 2 weeks. Travelers who require fingerprinting must travel to a
neighboring post or stop in Europe on their way to the United States. The embassy reports that
Embassy Paris has been especially helpful in quickly processing their visa applicants. Although
the OIG team recognizes that visa applicants must travel to a neighboring country at great
expense with no guarantee of receiving a visa (30 percent are refused), it does not believe that
issuing visas in Bangui is advisable under the present skeleton staffing model.

       During the 12 months before the OIG inspection, the embassy submitted 11 Visas Viper
monthly activity report cables and 1 nomination cable. The OIG team reminded post that
submitting a nomination does not obviate the requirement to transmit a monthly report.




                                       9
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
            Agency                  U.S.        U.S.          Foreign       Total      Total
                                   Direct-   Local-Hire       National      Staff     Funding
                                  Hire Staff   Staff           Staff                  FY 2011
Department of State
Diplomatic and Consular                     4             0            6        10   $1,154,200
Programs
International Cooperative                   2             2           30        34   $1,723,000
Administrative Support
Services
Public Diplomacy                            1             0            5         6     $180,000
Diplomatic Security                         0             0            2         2     $335,461
Representation                              0             0            0         0      $11,100
Overseas Buildings Operations               0             0            0         0     $196,314
Office of Defense Cooperation               0             0            0         0            0
Other                                       0             0            0         0            0
U.S. Agency for International               0             0            0         0            0
Development
Other Foreign Assistance                    0             0            0         0            0
Totals                                      7             2           43        52   $3,600,075

Overview

        Embassy Bangui is too small to have functional depth or to benefit from economies of
scale. There are too few people trying to do too much. The U.S. direct-hire staff consists of one
management officer and one entry-level general services officer. Because the embassy has been
chronically unable to recruit an at-grade, in-cone management officer, there is no permanent U.S.
direct-hire management experience at the embassy. The current entry-level general services
officer worked under 16 temporary duty management officers in 20 months.

       The Ambassador and DCM lack the time and expertise to perform a management officer
role. An additional functional gap is that of management controls oversight. Without an
experienced management officer who understands sometimes complex and contentious areas,
such as travel and reimbursement for personal expenses, the U.S. Government is at risk of losing
money, and employees can make costly mistakes.

Regional Support

       Embassy Bangui receives most of its regional support from Embassy Yaoundé, with
additional help from Lagos, Nairobi, Dakar, and N’Djamena. Facilities assistance from
Washington has been intermittent and does not provide necessary day-to-day mentoring of the


                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

new LE maintenance supervisor or oversight of the safety, health, and environmental
management program.

        Department regional support structures are designed to fill gaps in U.S. direct-hire
staffing in human resources, financial management, and facilities management. These structures
assume at least one experienced U.S. direct-hire management employee on site and thus are
inadequate for Embassy Bangui.

A Long-Term Solution

        Other embassies in the region face similar challenges. Using an International Cooperative
Administrative Support Services (ICASS) structure such as the Zagreb-Podgorica model, a post
such as Embassy Yaoundé could provide administrative support to Bangui using Bangui’s
ICASS funding, as appropriate. Given the absence of a management officer, many of Bangui’s
activities could be performed at another embassy. Examples include the following:

   •   Human Resources
          o time and attendance
          o employee sponsor and orientation programs
          o staff overtime analyses
          o LE staff recruitment
          o embassy training plan
          o awards program
          o Federal Women’s Program
   •   Financial Management
          o budget analysis and reporting
          o voucher examination: travel, permanent change of station, and representation
          o travel reporting
   •   General Services
          o housing program
          o management policy formulation and updates
          o purchase card program

       Transferring responsibilities for administrative support to another regional embassy
would allow the management officer in Bangui to manage offshore support, negotiate local
contracts, manage the diminishing use of cash in Bangui, improve customer service, develop
administrative support staff, and focus on emergency planning. The general services officer
could concentrate efforts on operations, internal controls, and staff development in the areas of
customs and shipping, warehouse, motor pool, fuel supply, and procurement.

Recommendation 2: The Bureau of African Affairs, in coordination with the Bureau of the
Comptroller and Global Financial Services and Embassy Bangui, should formulate a long-term
strategy to provide greater administrative support to Embassy Bangui. (Action: AF, in
coordination CGFS and Embassy Bangui)



                                       11
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Human Resources

        Notwithstanding excellent human resources support from Embassy Yaoundé, there are
shortcomings because of weak management in Bangui. The regional human resources officer
visits Bangui quarterly but does not complete trip reports with action items. She also holds
weekly staff meetings by telephone with the human resources assistant and temporary duty
management officer in Bangui. The human resources assistant copies the Yaoundé human
resources officer on all correspondence and telephones her for advice several times a week.
Because of the missing management link in Bangui, however, this model is not fully successful.
The human resources office in Yaoundé is better positioned to perform routine human resources
functions than Embassy Bangui.

Overtime Compensation

        Employees who submit overtime are compensated in either salary or compensatory time,
but there is no clear embassy policy on who is eligible for overtime or the possibility of
converting compensatory time to salary payments. The result is inequitable treatment of
employees.

Recommendation 3: Embassy Bangui should implement a comprehensive overtime policy,
including an explanation of compensatory time and conversion of compensatory time to salary
payments. (Action: Embassy Bangui)

Equal Employment Opportunity

        There is no effective Equal Employment Opportunity program at Embassy Bangui. The
embassy has designated an Equal Employment Opportunity counselor, but he has not taken
requisite training because there is not enough depth in staffing to effectively back up his function
during his absence. There is no Equal Employment Opportunity guidance posted at the embassy.
In accordance with the Code of Federal Regulations, 1 the embassy is required to display an
Equal Employment Opportunity bulletin board with the current information in a noticeable
location for all employees.

Recommendation 4: Embassy Bangui, in coordination with Embassy Yaoundé, should create
an Equal Employment Opportunity program to include training of a counselor and posting of
information. (Action: Embassy Bangui, in coordination with Embassy Yaoundé)

Federal Women’s Program

       Embassy Bangui does not have a Federal Women’s Program and has not designated a
Federal Women’s Program coordinator. This program would be yet another activity that could be
coordinated with Embassy Yaoundé.




1
    29 CFR 1614.102(b)(7)
                                         12
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

General Services Office

       The general services officer has formed a cohesive team of the warehouse, motor pool,
and procurement sections. Each employee has a current and accurate position description and a
professional development plan. Drivers are meticulous about safety procedures. This very small
embassy adheres carefully to separation of duties in procurement, payment, and receiving.

Real Property

       Two of three government-owned houses on the embassy compound were designated as
housing for temporary duty employees because Bangui lacked acceptable hotels. Guidance from
the Bureau of Overseas Buildings Operations requires the embassy to reevaluate the use of these
residences once hotel space is available. A new hotel with acceptable accommodations opened in
Bangui in 2012.

Facilities and Safety, Health, and Environmental Management

        Embassy Bangui has designated the general services officer as the safety and health
officer but has not established a safety and health program. Per 15 FAM 932 and 15 FAM 933-
935, a safety program, complete with a standing committee and prescribed, at least semiannual,
meetings, is required at every Foreign Service post. Without a consistent focus on safety,
employees are at risk of injury.

Recommendation 5: Embassy Bangui should institute a formal safety and health program.
(Action: Embassy Bangui)

        In the past year, one warehouse employee injured his back, and OIG inspectors observed
several LE staff members without appropriate safety clothing and lifting equipment. Per 15 FAM
957.6, protective clothing will be provided and funded by posts whenever the post occupational
and health official representative determines it is necessary to protect employees or to meet
Department or Federal standards. Lack of appropriate safety clothing and equipment risks injury
to employees.

Recommendation 6: Embassy Bangui should conduct a comprehensive review of safety
clothing and equipment and provide such items, as appropriate, to employees. (Action: Embassy
Bangui)

        Because of inadequate planning and coordination, employees moved into housing in
Bangui that was not ready for occupancy. As specified in 15 FAM 632.1-1, the U.S. Government
is responsible for maintenance and repair of government-owned housing. Not allowing time for
necessary repairs to a residence between occupants results in employees living in substandard
conditions.

Recommendation 7: Embassy Bangui should develop a comprehensive make-ready schedule
for housing turnovers and should not permit occupancy of a residence that does not meet
minimum safety standards. (Action: Embassy Bangui)

                                       13
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

    Financial Management

           Embassy Bangui has made minimizing the use of cash a high priority and has succeeded
    at depositing salaries into the bank accounts of the LE staff rather than disbursing cash payments.
    Recurring problems with local banks’ capacity to receive electronic funds transfers dictate that
    most local vendor payments are in cash. Supply chain management controls are in place to
    minimize the risk of using cash.

            Operations are hindered by lack of budget analysis and planning. Emphasis on spending
    at the end of the fiscal year delays purchases. Per 4 FAM 022.1 (1), budget planning includes
    preparing budgets covering all post operations and the subsequent control of funds made
    available for those operations. The embassy does not spread purchasing throughout the year. A
    lack of planning results in purchasing that is not prioritized appropriately.

    Recommendation 8: Embassy Bangui should develop a spending plan early in the fiscal year.
    (Action: Embassy Bangui)
   (b) (5)




    Recommendation 9: (b) (5)


    Information Management
(b) (5)




    Recommendation 10: (b) (5)


(b) (5)




                                           14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED
 (b) (5)




                Informal Recommendation 3:        (b) (5)




      Radio Operations

              Foreign Ministry correspondence from 1992 approved three of five very high frequencies
      (VHF) used by the embassy. A subsequent 1995 Foreign Ministry note approved VHF operations
      but not for frequencies currently used by the embassy. The OIG team was unable to find host
      nation approval for high-frequency (HF) radio operations; however, given the overt usage of
      both HF and VHF systems in Bangui, it must be assumed that the host government condones the
      usage.

              Only 6 of the embassy’s 15 vehicles are equipped with VHF radio equipment. The
      embassy also has 20 hand-held VHF radios that can be used only if they are programmed. The
      OIG team has confirmed that the Bureau of African Affairs will assist in the ordering and
      installation of necessary mobile radio equipment and that the Regional Information Management
      Center in Frankfurt can assist in programming the hand-held units.

             Embassy Bangui does not routinely conduct HF radio tests with Embassy Yaoundé
      (network control) from either the chancery or from the chief of mission residence.

             Informal Recommendation 4: Embassy Bangui should verify the operation of its high-
             frequency radios at the chancery and chief of mission residence by communicating
             regularly with Yaoundé.

               VHF reception is not adequate at all embassy residences. A survey determined that a
      repeater tower located at the DCM’s residence would provide adequate coverage. The embassy is
      contracting with a local company to conduct soil testing to comply with a Bureau of Overseas
      Buildings Operations instruction before that office will approve platform and tower construction
      at the residence.
(b) (5)




                                            15
                               SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Telephone Operations

        The embassy does not have wiring closets. Telephone wiring blocks in the chancery are
situated low on office walls and are not covered. Although they are neat in appearance and
organized, accidental damage could result in disruption of service. (b) (5)



Recommendation 11: Embassy Bangui should request, and the Bureau Regional Information
Management Center Frankfurt should provide, technical assistance to comply with (b) (5)




                                      16
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Quality of Life
       Embassy Bangui has no office recreation association, and the community liaison office
coordinator position is vacant. (The only family member at the embassy is the Ambassador’s
spouse.) The health unit is staffed by one LE nurse who coordinates services with the Foreign
Service nurse practitioner in Yaoundé and the regional medical officer in Lagos.

        The LE nurse reports that shipment of medicine takes 3 to 6 months. Local medical care
and pharmaceuticals are substandard. Because there is no permanent management officer,
oversight and supervision of the on-site health unit is intermittent. The result is that they often
run out of medical supplies. The regional medical officer based in Lagos could facilitate medical
purchases for Bangui.

Recommendation 12: Embassy Bangui, in coordination with Embassy Abuja, should develop a
pharmaceuticals and vaccine procurement plan for the health unit. (Action: Embassy Bangui, in
coordination with Embassy Abuja)




                                       17
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
        Embassy Bangui submitted a chief of mission statement of assurance that highlighted the
lack of a management officer as the primary reason for lack of confidence in internal controls
and the importance of constant and close oversight to ensure that good procedures are in place
and followed consistently.

Purchase Card Program

         The Department suspended Embassy Bangui’s purchase card program in FY 2012 for
several months because of lack of payment. Staff had failed to track purchases and payments
adequately. During the suspension, employees used personal credit cards and were reimbursed
for purchases. Embassy Bangui now has a fully functional purchase card program but lacks the
staff to adequately monitor the program. This is a function that could be performed offshore.

Subcashiers

        Embassy Bangui has two subcashiers. The OIG inspectors observed that documentation
for the subcashiers is absent and that cash counts are irregular. In accordance with 4 FAH-3 H-
397.1-2, unannounced verifications of a Class B cashier must be conducted monthly, regardless
of the cash amount. Per 4 FAH-3 H-394.3 a., the regulations that apply to the Class B cashier’s
use of the operating cash advance also apply to subcashiers. Lack of oversight invites fraud.

Recommendation 13: Embassy Bangui should conduct monthly cash counts of its subcashiers’
funds, and document the counts with a memorandum for the record. (Action: Embassy Bangui)

Travel Vouchers

       Embassy Bangui has authorized travel that does not conform to Department regulations.
Rest and recuperation travel orders do not document cost construction. Per 4 FAM 425,
prepayment examination consists of checking for appropriate documentation. Without adequate
documentation, travelers and travel approvers are vulnerable to risk of less than full
reimbursement of travel.

       Informal Recommendation 5: Embassy Bangui should include full documentation of
       cost construction for rest and recuperation travel.

Consular Management Controls

        The consular section averages only $10 of fee collections a day. Those fees are not being
collected according to the standard operating procedures of 7 FAH-1 H-770. The Automated
Cash Register System is not being used. The consular assistant delivers each payment to the
embassy’s Class B cashier directly, and the Class B cashier issues the receipt for each
transaction. Although the present system is elegant in its simplicity, it violates the clear
instruction of the 7 FAH-1 H-771.1-2. There are no consular reports and no way to ensure
accountability of consular funds.
                                       18
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy Bangui should immediately use the Automated Cash Register
System and follow 7 FAH procedures for consular cash accountability. (Action: Embassy
Bangui)

        The only accountable consular items are several seals that are accounted for properly. A
review of the consular files in the office cabinet found that almost all files were out of date.
Subject files had guidance that was decades old, thousands of blank forms were out of date, and
other files contained personal information.

Recommendation 15: The Bureau of Consular Affairs, in coordination with Embassy Bangui,
should instruct the regional consular officer to review the files in Bangui and identify those that
should be destroyed, retired, or maintained. (Action: CA, in coordination with Embassy Bangui)




                                       19
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of African Affairs, in coordination with the Bureau of
Human Resources, should assess the type of presence it wishes to maintain in the Central African
Republic and develop a strategy to staff and support the embassy appropriately. (Action: AF, in
coordination with DGHR)

Recommendation 2: The Bureau of African Affairs, in coordination with the Bureau of the
Comptroller and Global Financial Services and Embassy Bangui, should formulate a long-term
strategy to provide greater administrative support to Embassy Bangui. (Action: AF, in
coordination CGFS and Embassy Bangui)

Recommendation 3: Embassy Bangui should implement a comprehensive overtime policy,
including an explanation of compensatory time and conversion of compensatory time to salary
payments. (Action: Embassy Bangui)

Recommendation 4: Embassy Bangui, in coordination with Embassy Yaoundé, should create
an Equal Employment Opportunity program to include training of a counselor and posting of
information. (Action: Embassy Bangui, in coordination with Embassy Yaoundé)

Recommendation 5: Embassy Bangui should institute a formal safety and health program.
(Action: Embassy Bangui)

Recommendation 6: Embassy Bangui should conduct a comprehensive review of safety
clothing and equipment and provide such items, as appropriate, to employees. (Action: Embassy
Bangui)

Recommendation 7: Embassy Bangui should develop a comprehensive make-ready schedule
for housing turnovers and should not permit occupancy of a residence that does not meet
minimum safety standards. (Action: Embassy Bangui)

Recommendation 8: Embassy Bangui should develop a spending plan early in the fiscal year.
(Action: Embassy Bangui)

Recommendation 9: (b) (5)


Recommendation 10: (b) (5)


Recommendation 11: Embassy Bangui should request, and the Bureau Regional Information
Management Center Frankfurt should provide, technical assistance to comply with (b) (5)



Recommendation 12: Embassy Bangui, in coordination with Embassy Abuja, should develop
a pharmaceuticals and vaccine procurement plan for the health unit. (Action: Embassy Bangui, in
coordination with Embassy Abuja)
                                             20
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Bangui should conduct monthly cash counts of its
subcashiers’ funds, and document the counts with a memorandum for the record. (Action:
Embassy Bangui)

Recommendation 14: Embassy Bangui should immediately use the Automated Cash Register
System and follow 7 FAH procedures for consular cash accountability. (Action: Embassy
Bangui)

Recommendation 15: The Bureau of Consular Affairs, in coordination with Embassy Bangui,
should instruct the regional consular officer to review the files in Bangui and identify those that
should be destroyed, retired, or maintained. (Action: CA, in coordination with Embassy Bangui)




                                       21
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bangui should create a plan for the use of
representation funding.

Informal Recommendation 2: Embassy Bangui should train and certify a backup grants
officer.

Informal Recommendation 3: (b) (5)


Informal Recommendation 4: Embassy Bangui should verify the operation of its high-
frequency radios at the chancery and chief of mission residence by communicating regularly
with Yaoundé.

Informal Recommendation 5: Embassy Bangui should include full documentation of cost
construction for rest and recuperation travel.




                                      22
                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                      Name    Arrival Date
Ambassador                             Laurence D. Wohlers            9/10
Deputy Chief of Mission                Brennan M. Gilmore             7/11
Management                                           Vacant
General Services                           Michelle Kayser            1/11
Consular/Political/Economic                Robert J. Cavese           3/11
Public Affairs                                       Vacant




                                     23
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM               Deputy chief of mission

Department        U.S. Department of State

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

HF                High frequency

ICASS             International Cooperative Administrative Support Services

LE                Locally employed

OIG               Office of Inspector General

VHF               Very high frequency




                             24
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
